(f ^
r

Yd0
C’

UNITED STATES COURT OF APPEALS

FILED
SEP 14 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

20-35322

2:19-cv-00058-WFN
2:14-cr-00161 - WFN-1
Eastern District of Washington,
Spokane
D.C. Nos.

CRAIG ALLEN MORGENSTERN,
ORDER
Defendant-Appellant.
Before:

RAWLINSON and BRESS, Circuit Judges.

The motion (Docket Entry No. 7) to file an oversized request for a certificate
of appealability is granted. The request for a certificate of appealability (Docket
Entry No. 10) is denied because appellant has not made a “substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

A PAc aJ (s( % A

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 23 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

20-35322

2:19-cv-00058-WFN
2:14-cr-00161 -WFN-1
Eastern District of Washington,
Spokane
D.C.Nos.

CRAIG ALLEN MORGENSTERN,
ORDER
Defendant-Appellant.
Before:

IKUTA and MILLER, Circuit Judges.

Appellant’s motion for an extension of time (Docket Entry No. 17) is
granted. Appellant’s motion for reconsideration (Docket Entry No. 18) is deemed
timely and is denied. See 9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

4

UNITED STATES OF AMERICA, Plaintiff-Appellee, v. CRAIG ALLEN MORGENSTERN.
Defendant-Appellant.
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
725 Fed. Appx. 546; 2018 U.S. App. LEXIS 5239
No. 16-30177
February 5, 2018**, Submitted Seattle, Washington
** The panel unanimously concludes this case is suitable for decision without oral argument.
See Fed. R. App. P. 34(a)(2)(C).
fMarch 1. 2018, Filed)

Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2018 U.S. App. LEXIS 1}Appeal from the United States District Court for the Eastern District of
Washington. D.C. No. 14-CR-00161-WFN. Wm. Fremming Nielsen, Senior District Judge, Presiding.
Disposition:
AFFIRMED.
Counsel

For UNITED STATES OF AMERICA, Plaintiff - Appellee: James A.
Goeke, Assistant U.S. Attorney, United States Attorney's Office, Eastern District of
Washington, Spokane, WA; Stephanie Joyce Lister, Assistant U.S. Attorney,[COR NTC
Assist US Attorney] USSP - OFFICE OF THE U.S. ATTORNEY, Spokane, WA.
For CRAIG ALLEN MORGENSTERN. Defendant - Appellant:
Bryan Paul Whitaker, Attorney, Brvan P. Whitaker. Attorney at Law, Spokane, WA.
Judges: Before: GOULD and PAEZ, Circuit Judges, and MCSHANE,*** District Judge.
CASE SUMMARYDefendant's convictions for aggravated sexual assault, production of child
pornography, and transportation with intent to engage in sexual contact with a child were affirmed since
there was sufficient evidence, and he was not deprived of his right to a fair trial.
OVERVIEW: HOLDINGS: [1]-There was sufficient evidence to support defendant's convictions for
aggravated sexual abuse of a child; [2]-The jury was properly instructed as to the definition of sexual acts
and any argument that they may have confused that definition with the standard for sexually explicit
conduct required for conviction of the production of child pornography counts was not supported by the
record; [3]-There was insuffiGient-evidence^f-sedation'tO'Support4iiS’«convictions*for<iaggravated*sexual
assault; [4]-There was sufficient evidence to support venue or the eight counts of aggravated sexual
assault; [5]-The trial court did not err by failing to exclude the victims' parents from the courtroom during
the trial; [6]-An alleged sleeping juror and alleged inadequate deliberations not deprive him of a fair trial.
OUTCOME: Convictions affirmed.

A09CASES

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

APPEtibit Crl

!

LexisNexis Headnotes
i

Evidence > Procedural Considerations > Burdens of Proof > Proof Beyond Reasonable Doubt
Evidence > Procedural Considerations > Weight & Sufficiency

!

In reviewing a challenge to the sufficiency of the evidence to support a verdict in a criminal case, a court
asks whether, after viewing the evidence in the light most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the crime beyond a reasonable doubt.
Criminal Law & Procedure > Criminal Offenses > Sex Crimes > Sexual Assault > Abuse of
Children aTElements |
A violation of 18 U.S.C.S. § 2241(c), aggravated sexual abuse of a child, occurs when a person engages
in a sexual act with a person under the age of 16. Sexual act is defined as contact between the mouth
and penis, or the intentional touching, not throuahlhe clothing, of the genitalia of another person who has
• not attained the age of 16 years with an intent to abuse, humiliate, harass, degrade, or arouse or gratify
the sexual desire of any person. 18 U.S.6.S. §'224‘5 eiGiEQEId )•
Criminal Law & Procedure > Jurisdiction & Venue > Venue
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review
A district court's venue determination is reviewed de novo.
Criminal Law & Procedure > Jurisdiction & Venue > Venue
Evidence > Procedural Considerations > Burdens of Proof > Allocation
Evidence > Procedural Considerations > Burdens of Proof > Preponderance of Evidence
The government must establish proper venue by a preponderance of the evidence.
Criminal Law & Procedure > Jurisdiction & Venue > Venue
Criminal Law & Procedure > Criminal Offenses > Sex Crimes > Sexual Assault > Abuse of
Children > Elements
Aggravated sexual abuse of a child is a continuing offense. Venue for a continuing offense is proper if an
essential conduct element' of the offense begins in, continues into, or is completed in the charging
district. The essential conduct elements of aggravated sexual abuse are crossing a state line with intent
to engage in a sexual act with a child and engaging in or attempting to engage in a sexual act with a
child.
Evidence > Procedural Considerations > Burdens of Proof > Clear & Convincing Proof
Criminal Law & Procedure > Witnesses
A crime victim has the right not to be excluded from any such public court proceeding, unless the court,
after receiving clear and convincing evidence, determines that testimony by the victim would be
materially altered if the victim heard other testimony at that proceeding. 18 U.S.C.S. § 3771(a)(3).
Criminal Law & Procedure > Postconviction Proceedings > Motions for New Trial
Criminal Law & Procedure > Appeals > Standards of Review > Abuse of Discretion > New Trial
Criminal Law & Procedure > Juries & Jurors > Jury Deliberations > Juror Misconduct
An appellate court reviews for abuse of discretion a district court's denial of a motion for a new trial due

A09CASES

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Cl

to juror misconduct.
Criminal Law & Procedure > Trials > Defendant's Rights > Right to Fair Trial
Evidence > Procedural Considerations > Burdens of Proof > Allocation
The presence of a sleeping juror during trial does not, per se, deprive a defendant of a fair trial. Rather, a
defendant asserting that a sleeping or absent juror deprived him of a fair trial must demonstrate actual
prejudice.
Opinion

{725 Fed. Appx. 548} MEMORANDUM*
Appellant Craig Allen Morqenstern raises several challenges to his convictions for Aggravated
Sexual Assault, Production of Child Pornography, and Transportation with Intent to Engage in Sexual
Contact with a Child. We have jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C. § 3742. We affirm.
Morgenstern’s first assignment of error is that there was insufficient evidence to support his
convictions for Aggravated Sexual Abuse of a Child. "In reviewing a challenge to the sufficiency of
the evidence to support a verdict in a criminal case, we ask 'whether,{2018 U.S. App. LEXIS 2} after
viewing the evidence in the light most favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a reasonable doubt.”' United Statesy.
Lukashov. 694 F.3d 1107. 1118 (9th Cir. 20121 (quoting Jackson v. Virginia, 443 U.S. 307, 319, 99 S.
Ct. 2781, 61 L. Ed. 2d 560 (1979)).
.**
«.

n

-r

a*

A violation of 18 U.S.C. § 2241(c), Aggravated Sexual Abuse of a Child, occurs, when a person 's
enaagesJaa "sexual act” with a person under the age of 16. "Sexual act” is defined as contact
between the mouth and penis, or "the intentional touching, not through the clothing, of the genitalia
of another person who has not attained the aoe of 16 years with an intent,tn„ahiisp>. humiliate
harass, degrade, or arouse or gratify the sexual desire of any person." 18 U.S.C. §§ 2246(2j(Bl, fDT
The overwhelming evidence of "sexual acts" presented at trial was sufficient evidence for a trier of
fact to find beyond a reasonable doubt that Morqenstern committed Aggravated Sexual Abuse of a
Child. See Lukashov, 694 F.3d at 1118-19. The jury was properly instructed as to the definition of
"sexual acts" and any argument that they may have confused that definition with the standard for
"sexually explicit conduct" required for conviction of the Production of-Cbikl-BQCQoacaoby-COunts is
not supported by the record.

. d

, .,jo

/v

a

.■y t-T ■
■
0^fW ^

Morgenstern's second assignment of error is that there was insufficient{2018 U.S. App. LEXIS 3}
evidence of sedation to support his convictions for Aggravated Sexual Assault. In addition to expert
\
1 testimony, evidence presented at trial showed that the victims appeared to be asleep during the
abuse. Person A was not aware the abuse occurred until investigators showed him pictures of
,,3 Morqenstern abusing him. There was evidence that Morqenstern placed sedatives in the hot
chocolate he gave some of the victims. Morqenstern provided some {725 Fed. Appx. 549} boys "
with pills and liquor at a hotel room. Images showed three seemingly unconscious bovs being abused
^ in the same hotel room. A rational jury could have concluded beyond a reasonable doubt that the
^
victims in each relevant count were sedated.

^ ~

C:.•V\V

Morgenstern's third assignment of error is that there was insufficient evidence to prove venue in the
Eastern District of Washington for the eight counts of Aggravated Sexual Assault. The district court’s

A09CASES

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

c~3

V/J ■

venue determination is reviewed de novo. See United States v. Gonzalez, 683 F.3d 1221, 1224 (9th
Cir. 2012). The government must establish proper venue by a preponderance of the evidence. See
id.

Xs

'A' VO

^ .

■>

Aggravated Sexual Abuse of a Child is a continuing offense. See Lukashov, 694 F.3d at 1121.
"[Vjenue for a continuing offense is proper if an 'essential conduct element' of the offense begins in,
continues{2018 U.S. App. LEXIS 4} into, or is completed in the charging district." Id. at 1120-21
(quoting 18 U.S.C. § 3237(a) and United States v. Rodriguez-Moreno, 526 U.S. 275, 280, 119 S. Ct.
1239, 143 L. Ed. 2d 388 (1999)). The essential conduct elements of aggravated sexual abuse are:
"(1) crossing a state line, (2) with intent to engage in a sexual act with a child, and (3) engaging in or
attempting to engage in a sexual act With 'b dtTTTd." Id. at 1121.
A rational jury could reasonably infer that Morgenstern-travelled from Washinqton-to
Mississippi-bringing cameras;-tripods,~and-video-games he did not play-with-a motivating'purpose of
sexually abusing Person A. Morgenstern's argument that he-travelled toMississippi-for-work-"ignores
the-human-ability and propensity lo aeFinlightof-multiple motives and purposes." Id. at 1118.
Similarly, a rational jury could conclude Morgenstern travelled to an amusement-park-in-ldaho with
a-motivating-purpose of-abusing -the -three brothers tna -hotel ’room.
Morgenstern's fourth assignment of error is that the trial court erred by failing to exclude the victims'
parents from the courtroom during the trial. As crime victims, however, the parents had "[tjhe right
not to be excluded from any such public court proceeding, unless the court, after receiving clear and
convincing evidence, determines that testimony by the victim wou!d{2018 U.S. App. LEXIS 5} be
materially altered if the victim heard other testimony at that proceeding." 18 U.S.C. § 3771(a)(3); In
re Mikhel, 453 F.3d 1137, 1139 (9th Cir. 2006) (per curiam).

. ,_J^. The parents' testimony at trial consisted of establishing the ages of their children and describing each
" family’s general relationship with Morgenstern. Neither parent testified to witnessing any abuse. The
r;r
government's case rested largely on photographic and video evidence taken from Morgenstern's
hard drives. Considering the evidence against Morgenstern and each parent's actual testimony,
there is no evidence either parent materially altered testimony by remaining in the courtroom during
the trial.

! \
i

Finally, Morgenstern argues that a sleeping juror and inadequate deliberations deprived him of a
fair trial. We review for abuse of discretion the district court's denial of a motion for a new trial due to
juror misconduct. United States v. Murphy, 483 F.3d 639, 642 (9th Cir. 2007).

l

<
,-J?1
{{V"
V f3 ^

i

The jury was presented with an overwhelming amount of digital evidence that depicted Morgenstern
performing sexual acts on the victims. INo-defense-was-oresented-aHriall Morgenstern was not
denied a fair trial based on the length of the jurors' deliberations.

tiYy

1 ^
'\ -o At a hearing on Morgenstern's motion for a new trial, the trial'judge concluded there‘wasmo evidence
^^t.^'/-i/'a'speeifis-juror{2018 U.S. App. LEXIS 6) feH^asleep-andreveniftie'didrit WasTof a {725 Fed. Appx.
I
550} brief-moment. We agree with the district court that under the circumstances, Morgenstern was
not deprived of a fair trial. ”[T)he presence of a sleeping juror during trial does not, per se, deprive a
defendant of a fair trial." United States v. Olano, 62 F.3d 1180, 1189 (9th Cir. 1995) {Olano II).
Rather, a defendant asserting that a sleeping or absent juror deprived him of a fair trial must
demonstrate actual prejudice. See id. at 1189-90 (discussing United States v. Springfield, 829 F.2d
860 (9th Cir. 1987), abrogated on other grounds by United States v. Benally, 843 F.3d 350, 353-54
(9th Cir. 2016)).
•.O

Considering the overwhelming evidence of Morgenstern's guilt, and the fact that the evidence

r

i

A09CASES

4

© 2020 Matthew Bender & Company, tnc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

presented while the juror was allegedly sleeping was not helpful to Morgenstern’s defense,
Morqenstern cannot demonstrate prejudice. 1 See Springfield, 829 F.2d at 864.
AFFIRMED.
Footnotes

** The panel unanimously concludes this case is suitable for decision without oral argument. See
Fed. R. App. P. 34(a)(2)(C).

This disposition is not appropriate for publication and is not precedent except as provided by Ninth
Circuit Rule 36-3.

1
While the juror was allegedly sleeping, the prosecution's expert anesthesiologist testified about
sedative effects of drugs like benzodiazepine.

;

A09CASES

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

/ytyGv/ai* C- 5

Case 2:14-cr-00161-WFN

ECF No. 229

filed 06/23/20

PagelD.3321 Page 1 of 1
FILED IN THE
U.S. DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON

1

Jun(23, 2020

2

SEAN F. MCAVOY, CLERK

3
UNITED STATES DISTRICT COURT

4

EASTERN DISTRICT OF WASHINGTON

5
6

UNITED STATES OF AMERICA,

7

2:14-CR-0161 - WFN

ORDER RE: MOTION FOR
TRANSCRIPTS AT GOVERNMENT
EXPENSE

-vs-

8
9

No.

Plaintiff,

CRAIG ALLEN MORGENSTERN,
Defendant.

10
11
12

Pending before the Court is Defendant's Motion for Transcripts at Government

13

Expense. ECF No 226. It appears that Defendant intended this request to be heard by the

14

Ninth Circuit as it pertains to his pending appeal. This Court does not have jurisdiction

15

during an appeal. The Court notes, however, that the bulk of the transcripts have already

16

been created and are available on the docket. Additionally, the Defendant was found to be

17

indigent and has been incarcerated since then. ECF No. 92. The Court has reviewed the

18

file and Defendant's Motion and is fully informed. Accordingly,
IT IS ORDERED that Defendant's Motion for Transcripts at Government Expense,

19
20

filed May 27, 2020, ECF No. 226, is DENIED AS MOOT.
The District Court Executive is directed to file this Order and provide copies to

21
22

counsel AND TO pro se Defendant.
DATED this 23rd day of June, 2020.

23
24
25
26
06-19-20

WM. FREMMING NIELSEN
SENIOR UNITED STATES DISTRICT JUDGE

27
28

ORDER

Appewu* 5

Rule 29. Motion for a Judgment of Acquittal
(a) Before Submission to the Jury. After the government closes its evidence or after the
close of all the evidence, the court on the defendant’s motion must enter a judgment of acquittal
of any offense for which the evidence is insufficient to sustain a conviction. The court may on its
own consider whether the evidence is insufficient to sustain a conviction. If the court denies a
motion for a judgment of acquittal at the close of the government’s evidence, the defendant may
offer evidence without having reserved the right to do so.
(b) Reserving Decision. The court may reserve decision on the motion, proceed with the
trial (where the motion is made before the close of all the evidence), submit the case to the jury,
and decide the motion either before the jury returns a verdict or after it returns a verdict of guilty
or is discharged without having returned a verdict. If the court reserves decision, it must decide
the motion on the basis of the evidence at the time the ruling was reserved.
(c) After Jury Verdict or Discharge.
(1) Time for a Motion. A defendant may move for a judgment of acquittal, or renew such
a motion, within 14 days after a guilty verdict or after the court discharges the jury, whichever is
later.
(2) Ruling on the Motion. If the jury has returned a guilty verdict, the court may set aside
the verdict and enter an acquittal. If the jury has failed to return a verdict, the court may enter a
judgment of acquittal.
(3) No Prior Motion Required. A defendant is not required to move for a judgment of
acquittal before the court submits the case to the jury as a prerequisite for making such a motion
after jury discharge.
(d) Conditional Ruling on a Motion for a New Trial.
(1) Motion for a New Trial. If the court enters a judgment of acquittal after a guilty
verdict, the court must also conditionally determine whether any motion for a new trial should be
granted if the judgment of acquittal is later vacated or reversed. The court must specify the
reasons for that determination.
(2) Finality. The court’s order conditionally granting a motion for a new trial does not
affect the finality of the judgment of acquittal.
(3) Appeal.
(A) Grant of a Motion for a New Trial. If the court conditionally grants a motion
USCSRULE

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
A AACMA/V

f

for a new trial and an appellate court later reverses the judgment of acquittal, the trial court must
proceed with the new trial unless the appellate court orders otherwise.
(B) Denial of a Motion for a New Trial. If the court conditionally denies a motion
for a new trial, an appellee may assert that the denial was erroneous. If the appellate court later
reverses the judgment of acquittal, the trial court must proceed as the appellate court directs.

2

USCSRULE

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

1755‘tOB5

/XWerfolt

Rule 52. Harmless and Plain Error.
(a) Harmless error. Any error, defect, irregularity, or variance that does not affect
substantial rights must be disregarded.
(b) Plain error. A plain error that affects substantial rights may be considered even though it
was not brought to the court’s attention.

USCSRULE

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

§ 2241. Aggravated sexual abuse
(a) By force or threat. Whoever, in the special maritime and territorial jurisdiction of the United
States or in a Federal prison, or in any prison, institution, or facility in which persons are held in custody
by direction of or pursuant to a contract or agreement with the head of any Federal department or
agency, knowingly causes another person to engage in a sexual act—
(1) by using force against that other person; or
(2) by threatening or placing that other person in fear that any person will be subjected to death,
serious bodily injury, or kidnapping;

or attempts to do so, shall be fined under this title, imprisoned for any term of years or life, or
both.
(b) By other means. Whoever, in the special maritime and territorial jurisdiction of the United
States or in a Federal prison, or in any prison, institution, or facility in which persons are held in custody
by direction of or pursuant to a contract or agreement with the head of any Federal department or
agency, knowingly—
(1) renders another person unconscious and thereby engages in a sexual act with that other
person; or
(2) administers to another person by force or threat of force, or without the knowledge or
permission of that person, a drug, intoxicant, or other similar substance and thereby—
(A) substantially impairs the ability of that other person to appraise or control conduct;
and
(B) engages in a sexual act with that other person;

or attempts to do so, shall be fined under this title, imprisoned for any term of years or life, or
both.
(c) With children. Whoever crosses a State line with intent to engage in a sexual act with a
person who has not attained the age of 12 years, or in the special maritime and territorial jurisdiction of
the United States or in a Federal prison, or in any prison, institution, or facility in which persons are held
in custody by direction of or pursuant to a contract or agreement with the head of any Federal
department or agency, knowingly engages in a sexual act with another person who has not attained the
age of 12 years, or knowingly engages in a sexual act under the circumstances described in subsections
(a) and (b) with another person who has attained the age of 12 years but has not attained the age of 16
years (and is at least 4 years younger than the person so engaging), or attempts to do so, shall be fined
under this title and imprisoned for not less than 30 years or for life. If the defendant has previously been
convicted of another Federal offense under this subsection, or of a State offense that would have been
an offense under either such provision had the offense occurred in a Federal prison, unless the death

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

APPeiucah e-4/

penalty is imposed, the defendant shall be sentenced to life in prison.
(d) State of mind proof requirement. In a prosecution under subsection (c) of this section, the
Government need not prove that the defendant knew that the other person engaging in the sexual act
had not attained the age of 12 years.

uses

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

§ 2244. Abusive sexual contact
(a) Sexual conduct in circumstances where sexual acts are punished by this chapter [18
uses §§ 2241 et seq.]. Whoever, in the special maritime and territorial jurisdiction of the United
States or in a Federal prison, or in any prison, institution, or facility in which persons are held in custody
by direction of or pursuant to a contract or agreement with the head of any Federal department or
agency, knowingly engages in or causes sexual contact with or by another person, if so to do would
violate—
(1) subsection (a) or (b) of section 2241 of this title [18 USCS § 2241] had the sexual contact
been a sexual act, shall be fined under this title, imprisoned not more than ten years, or both;
(2) section 2242 of this title [18 USCS § 2242] had the sexual contact been a sexual act, shall be
fined under this title, imprisoned not more than three years, or both;
(3) subsection (a) of section 2243 of this title [18 USCS § 2243] had the sexual contact been a
sexual act, shall be fined under this title, imprisoned not more than two years, or both;
(4) subsection (b) of section 2243 of this title [18 USCS § 2243] had the sexual contact been a
sexual act, shall be fined under this title, imprisoned not more than two years, or both; or
(5) subsection (c) of section 2241 of this title [18 USCS § 2241] had the sexual contact been a
sexual act, shall be fined under this title and imprisoned for any term of years or for life.
(b) In other circumstances. Whoever, in the special maritime and territorial jurisdiction of the
United States or in a Federal prison, or in any prison, institution, or facility in which persons are held in
custody by direction of or pursuant to a contract or agreement with the head of any Federal department
or agency, knowingly engages in sexual contact with another person without that other person’s
permission shall be fined under this title, imprisoned not more than two years, or both.
(c) Offenses involving young children. If the sexual contact that violates this section (other
than subsection (a)(5)) is with an individual who has not attained the age of 12 years, the maximum term
of imprisonment that may be imposed for the offense shall be twice that otherwise provided in this
section.

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group, All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
€~(o

§ 2245. Offenses resulting in death
(a) In general. A person who, in the course of an offense under this chapter [18 USCS §§ 2241 et
seq.], or section 1591, 2251, 2251 A, 2260, 2421, 2422, 2423, or 2425 [18 USCS § 1591, 2251, 2251 A,
2260, 2421, 2422, 2423, or 2425], murders an individual, shall be punished by death or imprisoned for
any term of years or for life.

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew'Bender Master Agreement.

17551085

§ 2246. Definitions for chapter
As used in this chapter [18 USCS §§ 2241 et seq.]—
(1) the term “prison” means a correctional, detention, or penal facility;
(2) the term “sexual act” means—
(A) contact between the penis and the vulva or the penis and the anus, and for purposes
of this subparagraph contact involving the penis occurs upon penetration, however slight;
(B) contact between the mouth and the penis, the mouth and the vulva, or the mouth
and the anus;
(C) the penetration, however slight, of the anal or genital opening of another by a hand
or finger or by any object, with an intent to abuse, humiliate, harass, degrade, or arouse or gratify the
sexual desire of any person; or
(D) the intentional touching, not through the clothing, of the genitalia of another person
who has not attained the age of 16 years with an intent to abuse, humiliate, harass, degrade, or arouse or
gratify the sexual desire of any person;
(3) the term “sexual contact” means the intentional touching, either directly or through the
clothing, of the genitalia, anus, groin, breast, inner thigh, or buttocks of any person with an intent to
abuse, humiliate, harass, degrade, or arouse or gratify the sexual desire of any person;
(4) the term “serious bodily injury" means bodily injury that involves a substantial risk of death,
unconsciousness, extreme physical pain, protracted and obvious disfigurement, or protracted loss or
impairment of the function of a bodily member, organ, or mental faculty;
(5) the term “official detention” means—
(A) detention by a Federal officer or employee, or under the direction of a Federal officer
or employee, following arrest for an offense; following surrender in lieu of arrest for an offense; following
a charge or conviction of an offense, or an allegation or finding of juvenile delinquency; following
commitment as a material witness; following civil commitment in lieu of criminal proceedings or pending
resumption of criminal proceedings that are being held in abeyance, or pending extradition, deportation,
or exclusion; or
(B) custody by a Federal officer or employee, or under the direction of a Federal officer
or employee, for purposes incident to any detention described in subparagraph (A) of this paragraph,
including transportation, medical diagnosis or treatment, court appearance, work, and recreation;

but does not include supervision or other control (other than custody during specified hours
or days) after release on bail, probation, or parole, or after release following a finding of juvenile
delinquency; and
1

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
APPSAJ^i *

§ 2251. Sexual exploitation of children
(a) Any person who employs, uses, persuades, induces, entices, or coerces any minor to engage in,
or who has a minor assist any other person to engage in, or who transports any minor in or affecting
interstate or foreign commerce, or in any Territory or Possession of the United States, with the intent that
such minor engage in, any sexually explicit conduct for the purpose of producing any visual depiction of
such conduct or for the purpose of transmitting a live visual depiction of such conduct, shall be punished
as provided under subsection (e), if such person knows or has reason to know that such visual depiction
will be transported or transmitted using any means or facility of interstate or foreign commerce or in or
affecting interstate or foreign commerce or mailed, if that visual depiction was produced or transmitted
using materials that have been mailed, shipped, or transported in or affecting interstate or foreign
commerce by any means, including by computer, or if such visual depiction has actually been
transported or transmitted using any means or facility of interstate or foreign commerce or in or affecting
interstate or foreign commerce or mailed.
(b) Any parent, legal guardian, or person having custody or control of a minor who knowingly permits
such minor to engage in, or to assist any other person to engage in, sexually explicit conduct for the
purpose of producing any visual depiction of such conduct or for the purpose of transmitting a live visual
depiction of such conduct shall be punished as provided under subsection (e) of this section, if such
parent, legal guardian, or person knows or has reason to know that such visual depiction will be
transported or transmitted using any means or facility of interstate or foreign commerce or in or affecting
interstate or foreign commerce or mailed, if that visual depiction was produced or transmitted using
materials that have been mailed, shipped, or transported in or affecting interstate or foreign commerce
by any means, including by computer, or if such visual depiction has actually been transported or
transmitted using any means or facility of interstate or foreign commerce or in or affecting interstate or
foreign commerce or mailed.

(c) (1) Any person who, in a circumstance described in paragraph (2), employs, uses, persuades,
induces, entices, or coerces any minor to engage in, or who has a minor assist any other person to
engage in, any sexually explicit conduct outside of the United States, its territories or possessions, for the
purpose of producing any visual depiction of such conduct, shall be punished as provided under
subsection (e).
(2) The circumstance referred to in paragraph (1) is that—
(A) the person intends such visual depiction to be transported to the United States, its
territories or possessions, by any means, including by using any means or facility of interstate or foreign
commerce or mail; or
(B) the person transports such visual depiction to the United States, its territories or
possessions, by any means, including by using any means or facility of interstate or foreign commerce or
mail.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group, All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
AoOaAlYW

(d) (1) Any person who, in a circumstance described in paragraph (2), knowingly makes, prints, or
publishes, or causes to be made, printed, or published, any notice or advertisement seeking or offering—
(A) to receive, exchange, buy, produce, display, distribute, or reproduce, any visual
depiction, if the production of such visual depiction involves the use of a minor engaging in sexually
explicit conduct and such visual depiction is of such conduct; or
(B) participation in any act of sexually explicit conduct by or with any minor for the
purpose of producing a visual depiction of such conduct;

shall be punished as provided under subsection (e).
(2) The circumstance referred to in paragraph (1) is that—
(A) such person knows or has reason to know that such notice or advertisement will be
transported using any means or facility of interstate or foreign commerce or in or affecting interstate or
foreign commerce by any means including by computer or mailed; or
(B) such notice or advertisement is transported using any means or facility of interstate
or foreign commerce or in or affecting interstate or foreign commerce by any means including by
computer or mailed.
(e) Any individual who violates, or attempts or conspires to violate, this section shall be fined under
this title and imprisoned not less than 15 years nor more than 30 years, but if such person has one prior
conviction under this chapter, section 1591 [18 USCS § 1591], chapter 71, chapter 109A, or chapter 117
[18 USCS §§ 2251 et seq., 18 USCS §§ 1460 et seq., 2241 et seq., or 2421 et seq.], or under section
920 of title 10 (article 120 of the Uniform Code of Military Justice), or under the laws of any State relating
to aggravated sexual abuse, sexual abuse, abusive sexual contact involving a minor or ward, or sex
trafficking of children, or the production, possession, receipt, mailing, sale, distribution, shipment, or
transportation of child pornography, such person shall be fined under this title and imprisoned for not less
than 25 years nor more than 50 years, but if such person has 2 or more prior convictions under this
chapter, chapter 71, chapter 109A, or chapter 117 [18 USCS §§ 2251 et seq., 18 USCS §§ 1460 et seq.,
2241 et seq., or 2421 et seq.], or under section 920 of title 10 (article 120 of the Uniform Code of Military
Justice), or under the laws of any State relating to the sexual exploitation of children, such person shall
be fined under this title and imprisoned not less than 35 years nor more than life. Any organization that
violates, or attempts or conspires to violate, this section shall be fined under this title. Whoever, in the
course of an offense under this section, engages in conduct that results in the death of a person, shall be
punished by death or imprisoned for not less than 30 years or for life.

2

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
,/UPPCAiW

f'1 o

§ 2421. Transportation generally
(a) In general. Whoever knowingly transports any individual in interstate or foreign commerce, or
in any Territory or Possession of the United States, with intent that such individual engage in prostitution,
or in any sexual activity for which any person can be charged with a criminal offense, or attempts to do
so, shall be fined under this title or imprisoned not more than 10 years, or both.

(b) Requests to prosecute violations by State Attorneys General.
(1) In general. The Attorney General shall grant a request by a State attorney general that a
State or local attorney be cross designated to prosecute a violation of this section unless the Attorney
General determines that granting the request would undermine the administration of justice.
(2) Reason for denial. If the Attorney General denies a request under paragraph (1), the Attorney
General shall submit to the State attorney general a detailed reason for the denial not later than 60 days
after the date on which a request is received.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

'

17551085
ADte/LtfU*

<£-M

§ 2422. Coercion and enticement
(a) Whoever knowingly persuades, induces, entices, or coerces any individual to travel in interstate
or foreign commerce, or in any Territory or Possession of the United States, to engage in prostitution, or
in any sexual activity for which any person can be charged with a criminal offense, or attempts to do so,
shall be fined under this title or imprisoned not more than 20 years, or both.
(b) Whoever, using the mail or any facility or means of interstate or foreign commerce, or within the
special maritime and territorial jurisdiction of the United States knowingly persuades, induces, entices, or
coerces any individual who has not attained the age of 18 years, to engage in prostitution or any sexual
activity for which any person can be charged with a criminal offense, or attempts to do so, shall be fined
under this title and imprisoned not less than 10 years or for life.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
Cldc\cxa hA/./

C~ <

§ 2423. Transportation of minors
(a) Transportation with intent to engage in criminal sexual activity.
A person who knowingly transports an individual who has not attained the age of 18 years in
interstate or foreign commerce, or in any commonwealth, territory or possession of the United
States, with intent that the individual engage in prostitution, or in any sexual activity for which
any person can be charged with a criminal offense, shall be fined under this title and imprisoned
not less than 10 years or for life.
(b) Travel with intent to engage in illicit sexual conduct. A person who travels in interstate
commerce or travels into the United States, or a United States citizen or an alien admitted for permanent
residence in the United States who travels in foreign commerce, with a motivating purpose of engaging
in any illicit sexual conduct with another person shall be fined under this title or imprisoned not more than
30 years, or both.
(c) Engaging in illicit sexual conduct in foreign places. Any United States citizen or alien
admitted for permanent residence who travels in foreign commerce or resides, either temporarily or
permanently, in a foreign country, and engages in any illicit sexual conduct with another person shall be
fined under this title or imprisoned not more than 30 years, or both.
(d) Ancillary offenses. Whoever, for the purpose of commercial advantage or private financial
gain, arranges, induces, procures, or facilitates the travel of a person knowing that such a person is
traveling in interstate commerce or foreign commerce with a motivating purpose of engaging in illicit
sexual conduct shall be fined under this title, imprisoned not more than 30 years, or both.
(e) Attempt and conspiracy. Whoever attempts or conspires to violate subsection (a), (b), (c), or
(d) shall be punishable in the same manner as a completed violation of that subsection.
(f) Definition. As used in this section, the term “illicit sexual conduct” means—
(1) a sexual act (as defined in section 2246 [18 USCS § 2246]) with a person under 18 years of
age that would be in violation of chapter 109A [18 USCS §§ 2241 et seq.] if the sexual act occurred in
the special maritime and territorial jurisdiction of the United States;
(2) any commercial sex act (as defined in section 1591 [18 USCS § 1591]) with a person under
18 years of age; or
(3) production of child pornography (as defined in section 2256(8) [18 USCS § 2256(8)]).
(g) Defense.
In a prosecution under this section based on illicit sexual conduct as defined in
subsection (f)(2), it is a defense, which the defendant must establish by clear and convincing evidence,
that the defendant reasonably believed that the person with whom the defendant engaged in the
commercial sex act had attained the age of 18 years.

USCS

1

;

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
APPe/vmK ■ £-\3

§ 2427. Inclusion of offenses relating to child pornography in definition of
sexual activity for which any person can be charged with a criminal offense
In this chapter [18 USCS §§ 2421 et seq.], the term “sexual activity for which any person can
be charged with a criminal offense” includes the production of child pornography, as defined in
section 2256(8).

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17651085
l\pp&1QK 6-IV

§ 3006A. Adequate representation of defendants
(a) Choice of plan.
Each United States district court, with the approval of the judicial council of the circuit, shall
place in operation throughout the district a plan for furnishing representation for any person
financially unable to obtain adequate representation in accordance with this section.
Representation under each plan shall include counsel and investigative, expert, and other services
necessary for adequate representation. Each plan shall provide the following:
(1) Representation shall be provided for any financially eligible person who—
. (A) is charged with a felony or a Class A misdemeanor;
(B) is a juvenile alleged to have committed an act of juvenile delinquency as defined in
section 5031 of this title [18 USCS § 5031];
(C) is charged with a violation of probation;
(D) is under arrest, when such representation is required by law;
(E) is charged with a violation of supervised release or faces modification, reduction, or
enlargement of a condition, or extension or revocation of a term of supervised release;
(F) is subject to a mental condition hearing under chapter 313 of this title [18 USCS §§
4241 et seq.];
(G) is in custody as a material witness;
(H) is entitled to appointment of counsel under the sixth amendment to the Constitution;
(I) faces loss of liberty in a case, and Federal law requires the appointment of counsel; or
(J) is entitled to the appointment of counsel under section 4109 of this title [18 USCS §

4109].
(2) Whenever the United States magistrate [United States magistrate judge] or the court
determines that the interests of justice so require, representation may be provided for any financially
eligible person who—
(A) is charged with a Class B or C misdemeanor, or an infraction for which a sentence to
confinement is authorized; or
(B) is seeking relief under section 2241, 2254, or 2255 of title 28.
(3) Private attorneys shall be appointed in a substantial proportion of the cases. Each plan may
include, in addition to the provisions for private attorneys, either of the following or both:

1

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
Appema 6~ (S'

(A) Attorneys furnished by a bar association or a legal aid agency.
(B) Attorneys furnished by a defender organization established in accordance with the
provisions of subsection (g).

Prior to approving the plan for a district, the judicial council of the circuit shall supplement the
plan with provisions for representation on appeal. The district court may modify the plan at any
time with the approval of the judicial council of the circuit. It shall modify the plan when directed
by the judicial council of the circuit. The district court shall notify the Administrative Office of the
United States Courts of any modification of its plan.
(b) Appointment of counsel. Counsel furnishing representation under the plan shall be selected
from a panel of attorneys designated or approved by the court, or from a bar association, legal aid
agency, or defender organization furnishing representation pursuant to the plan. In every case in which a
person entitled to representation under a plan approved under subsection (a) and appears without
counsel, the United States magistrate [United States magistrate judge] or the court shall advise the
person that he has the right to be represented by counsel and that counsel will be appointed to represent
him if he is financially unable to obtain counsel. Unless the person waives representation by counsel, the
United States magistrate [United States magistrate judge] or the court, if satisfied after appropriate
inquiry that the person is financially unable to obtain counsel, shall appoint counsel to represent him.
Such appointment may be made retroactive to include any representation furnished pursuant to the plan
prior to appointment. The United States magistrate [United States magistrate judge] or the court shall
appoint separate counsel for persons having interests that cannot properly be represented by the same
counsel, or when other good cause is shown.
(c) Duration and substitution of appointments. A person for whom counsel is appointed shall
be represented at every stage of the proceedings from his initial appearance before the United States
magistrate [United States magistrate judge] or the court through appeal, including ancillary matters
appropriate to the proceedings. If at any time after the appointment of counsel the United States
magistrate [United States magistrate judge] or the court finds that the person is financially able to obtain
counsel or to make partial payment for the representation, it may terminate the appointment of counsel
or authorize payment as provided in subsection (f), as the interests of justice may dictate. If at any stage
of the proceedings, including an appeal, the United States magistrate [United States magistrate judge] or
the court finds that the person is financially unable to pay counsel whom he had retained, it may appoint
counsel as provided in subsection (b) and authorize payment as provided in subsection (d), as the
interests of justice may dictate. The United States magistrate [United States magistrate judge] or the
court may, in the interests of justice, substitute one appointed counsel for another at any stage of the
proceedings.

(d) Payment for representation.
(1) Hourly rate. Any attorney appointed pursuant to this section or a bar association or legal aid
agency or community defender organization which has provided the appointed attorney shall, at the
conclusion of the representation or any segment thereof, be compensated at a rate not exceeding $60
per hour for time expended in court or before a United States magistrate [United States magistrate judge]
and $40 per hour for time reasonably expended out of court, unless the Judicial Conference determines

uses

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
ajy*=a\ak

Ib

that a higher rate of not in excess of $75 per hour is justified for a circuit or for particular districts within a
circuit, for time expended in court or before a United States magistrate pudge] and for time expended out
of court. The Judicial Conference shall develop guidelines for determining the maximum hourly rates for
each circuit in accordance with the preceding sentence, with variations by district, where appropriate,
taking into account such factors as the minimum range of the prevailing hourly rates for qualified
attorneys in the district in which the representation is provided and the recommendations of the judicial
councils of the circuits. Not less than 3 years after the effective date of the Criminal Justice Act Revision
of 1986, the Judicial Conference is authorized to raise the maximum hourly rates specified in this
paragraph up to the aggregate of the overall average percentages of the adjustments in the rates of pay
under the General Schedule made pursuant to section 5305 of title 5 on or after such effective date.
After the rates are raised under the preceding sentence, such maximum hourly rates may be raised at
intervals of not less than 1 year each, up to the aggregate of the overall average percentages of such
adjustments made since the last raise was made under this paragraph. Attorneys may be reimbursed for
expenses reasonably incurred, including the costs of transcripts authorized by the United States
magistrate [United States magistrate judge] or the court, and the costs of defending actions alleging
malpractice of counsel in furnishing representational services under this section. No reimbursement for
expenses in defending against malpractice claims shall be made if a judgment of malpractice is rendered
against the counsel furnishing representational services under this section. The United States magistrate
or the court shall make determinations relating to reimbursement of expenses under this paragraph.
(2) Maximum amounts. For representation of a defendant before the United States magistrate
[United States magistrate judge] or the district court, or both, the compensation to be paid to an attorney
or to a bar association or legal aid agency or community defender organization shall not exceed $7,000
for each attorney in a case in which one or more felonies are charged, and $2,000 for each attorney in a
case in which only misdemeanors are charged. For representation of a defendant in an appellate court,
the compensation to be paid to an attorney or to a bar association or legal aid agency or community
defender organization shall not exceed $5,000 for each attorney in each court. For representation of a
petitioner in a non-capital habeas corpus proceeding, the compensation for each attorney shall not
exceed the amount applicable to a felony in this paragraph for representation of a defendant before a
judicial officer of the district court. For representation of such petitioner in an appellate court, the
compensation for each attorney shall not exceed the amount applicable for representation of a defendant
in an appellate court. For representation of an offender before the United States Parole Commission in a
proceeding under section 4106A of this title [18 USCS § 4106A], the compensation shall not exceed
$1,500 for each attorney in each proceeding; for representation of an offender in an appeal from a
determination of such Commission under such section, the compensation shall not exceed $5,000 for
each attorney in each court. For any other representation required or authorized by this section, the
compensation shall not exceed $1,500 for each attorney in each proceeding. The compensation
maximum amounts provided in this paragraph shall increase simultaneously by the same percentage,
rounded to the nearest multiple of $100, as the aggregate percentage increases in the maximum hourly
compensation rate paid pursuant to paragraph (1) for time expended since the case maximum amounts
were last adjusted.
(3) Waiving maximum amounts. Payment in excess of any maximum amount provided in
paragraph (2) of this subsection may be made for extended or complex representation whenever the
court in which the representation was rendered, or the United States magistrate [United States
magistrate judge] if the representation was furnished exclusively before him, certifies that the amount of
the excess payment is necessary to provide fair compensation and the payment is approved by the chief
judge of the circuit. The chief judge of the circuit may delegate such approval authority to an active or

USCS

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

senior circuit judge.
(4) Disclosure of fees.
(A) In general. Subject to subparagraphs (B) through (E), the amounts paid under this
subsection for services in any case shall be made available to the public by the court upon the court’s
approval of the payment.
(B) Pre-trial or trial in progress. If a trial is in pre-trial status or still in progress and after
considering the defendant’s interests as set forth in subparagraph (D), the court shall—
(i) redact any detailed information on the payment voucher provided by defense
counsel to justify the expenses to the court; and
(ii) make public only the amounts approved for payment to defense counsel by
dividing those amounts into the following categories:
(I) Arraignment and or plea.
(II) Bail and detention hearings.
(III) Motions.
(IV) Hearings.
(V) Interviews and conferences.
(VI) Obtaining and reviewing records.
(VII) Legal research and brief writing.
(VIII) Travel time.
(IX) Investigative work.
(X) Experts.
(XI) Trial and appeals.
(XII) Other.
(C) Trial completed.
(i) In general. If a request for payment is not submitted until after the completion
of the trial and subject to consideration of the defendant’s interests as set forth in subparagraph (D), the
court shall make available to the public an unredacted copy of the expense voucher.
(ii) Protection of the rights of the defendant. If the court determines that
defendant’s interests as set forth in subparagraph (D) require a limited disclosure, the court shall disclose
amounts as provided in subparagraph (B).
(D) Considerations. The interests referred to in subparagraphs (B) and (C) are—

uses

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
/u>pe^ix G-('B

(i) to protect any person’s 5th amendment right against self-incrimination;
(ii) to protect the defendant’s 6th amendment rights to effective assistance of
counsel;
(iii) the defendant’s attorney-client privilege;
(iv) the work product privilege of the defendant’s counsel;
(v) the safety of any person; and
(vi) any other interest that justice may require, except that the amount of the
fees shall not be considered a reason justifying any limited disclosure under section 3006A(d)(4) of title
18, United States Code [18 USCS § 3006A(d)(4)].
(E) Notice. The court shall provide reasonable notice of disclosure to the counsel of the
defendant prior to the approval of the payments in order to allow the counsel to request redaction based
on the considerations set forth in subparagraph (D). Upon completion of the trial, the court shall release
unredacted copies of the vouchers provided by defense counsel to justify the expenses to the court. If
there is an appeal, the court shall not release unredacted copies of the vouchers provided by defense
counsel to justify the expenses to the court until such time as the appeals process is completed, unless
the court determines that none of the defendant’s interests set forth in subparagraph (D) will be
compromised.
(F) Effective date. The amendment made by paragraph (4) shall become effective 60
days after enactment of this Act [enacted Nov. 26, 1997], will apply only to cases filed on or after the
effective date, and shall be in effect for no longer than 24 months after the effective date.
(5) Filing claims. A separate claim for compensation and reimbursement shall be made to the
district court for representation before the United States magistrate [United States magistrate judge] and
the court, and to each appellate court before which the attorney provided representation to the person
involved. Each claim shall be supported by a sworn written statement specifying the time expended,
services rendered, and expenses incurred while the case was pending before the United States
magistrate [United States magistrate judge] and the court, and the compensation and reimbursement
applied for or received in the same case from any other source. The court shall fix the compensation and
reimbursement to be paid to the attorney or to the bar association or legal aid agency or community
defender organization which provided the appointed attorney. In cases where representation is furnished
exclusively before a United States magistrate [United States magistrate judge], the claim shall be
submitted to him and he shall fix the compensation and reimbursement to be paid. In cases where
representation is furnished other than before the United States magistrate [United States magistrate
judge], the district court, or an appellate court, claims shall be submitted to the district court which shall
fix the compensation and reimbursement to be paid.
(6) New trials. For purposes of compensation and other payments authorized by this section, an
order by a court granting a new trial shall be deemed to initiate a new case.
(7) Proceedings before appellate courts. If a person for whom counsel is appointed under this
section appeals to an appellate court or petitions for a writ of certiorari, he may do so without prepayment
of fees and costs or security therefor and without filing the affidavit required by section 1915(a) of title

USCS

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

28.

(e) Services other than counsel.
(1) Upon request. Counsel for a person who is financially unable to obtain investigative, expert,
or other services necessary for adequate representation may request them in an ex parte application.
Upon finding, after appropriate inquiry in an ex parte proceeding, that the services are necessary and
that the person is financially unable to obtain them, the court, or the United States magistrate [United
States magistrate judge] if the services are required in connection with a matter over which he has
jurisdiction, shall authorize counsel to obtain the services.
(2) Without prior request.
(A) Counsel appointed under this section may obtain, subject to later review,
investigative, expert, and other services without prior authorization if necessary for adequate
representation. Except as provided in subparagraph (B) of this paragraph, the total cost of services
obtained without prior authorization may not exceed $800 and expenses reasonably incurred.
(B) The court, or the United States magistrate [United States magistrate judge] (if the
services were rendered in a case disposed of entirely before the United States magistrate [United States
magistrate judge]), may, in the interest of justice, and upon the finding that timely procurement of
necessary services could not await prior authorization, approve payment for such services after they
have been obtained, even if the cost of such services exceeds $800.
(3) Maximum amounts. Compensation to be paid to a person for services rendered by him to a
person under this subsection, or to be paid to an organization for services rendered by an employee
thereof, shall not exceed $2,400, exclusive of reimbursement for expenses reasonably incurred, unless
payment in excess of that limit is certified by the court, or by the United States magistrate [United States
magistrate judge] if the services were rendered in connection with a case disposed of entirely before him,
as necessary to provide fair compensation for services of an unusual character or duration, and the
amount of the excess payment is approved by the chief judge of the circuit. The chief judge of the circuit
may delegate such approval authority to an active or senior circuit judge.
(4) Disclosure of fees. The amounts paid under this subsection for services in any case shall be
made available to the public.
(5) The dollar amounts provided in paragraphs (2) and (3) shall be adjusted simultaneously by an
amount, rounded to the nearest multiple of $100, equal to the percentage of the cumulative adjustments
taking effect under section 5303 of title 5 [5 USCS § 5303] in the rates of pay under the General
Schedule since the date the dollar amounts provided in paragraphs (2) and (3), respectively, were last
enacted or adjusted by statute.
Whenever the United States magistrate [United States
magistrate judge] or the court finds that funds are available for payment from or on behalf of a person
furnished representation, it may authorize or direct that such funds be paid to the appointed attorney, to
the bar association or legal aid agency or community defender organization which provided the
appointed attorney, to any person or organization authorized pursuant to subsection (e) to render
investigative, expert, or other services, or to the court for deposit in the Treasury as a reimbursement to
the appropriation, current at the time of payment, to carry out the provisions of this section. Except as so

(f) Receipt of other payments.

USCS

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551035

authorized or directed, no such person or organization may request or accept any payment or promise of
payment for representing a defendant.

(g) Defender organization.
(1) Qualifications. A district or a part of a district in which at least two hundred persons annually
require the appointment of counsel may establish a defender organization as provided for either under
subparagraphs (A) or (B) of paragraph (2) of this subsection or both. Two adjacent districts or parts of
districts may aggregate the number of persons required to be represented to establish eligibility for a
defender organization to serve both areas. In the event that adjacent districts or parts of districts are
located in different circuits, the plan for furnishing representation shall be approved by the judicial council
of each circuit.
(2) Types of defender organizations.
(A) Federal Public Defender Organization. A Federal Public Defender Organization shall
consist of one or more full-time salaried attorneys. An organization for a district or part of a district or two
adjacent districts or parts of districts shall be supervised by a Federal Public Defender appointed by the
court of appeals of the circuit, without regard to the provisions of title 5 governing appointments in the
competitive service, after considering recommendations from the district court or courts to be served.
Nothing contained herein shall be deemed to authorize more than one Federal Public Defender within a
single judicial district. The Federal Public Defender shall be appointed for a term of four years, unless
sooner removed by the court of appeals of the circuit for incompetency, misconduct in office, or neglect
of duty. Upon the expiration of his term, a Federal Public Defender may, by a majority vote of the judges
of the court of appeals, continue to perform the duties of his office until his successor is appointed, or
until one year after the expiration of such Defender’s term, whichever is earlier. The compensation of the
Federal Public Defender shall be fixed by the court of appeals of the circuit at a rate not to exceed the
compensation received by the United States Attorney for the District where representation is furnished
or, if two districts or parts of districts are involved, the compensation of the higher paid United States
attorney of the districts. The Federal Public Defender may appoint, without regard to the provisions of
title 5 governing appointments in the competitive service, full-time attorneys in such number as may be
approved by the court of appeals of the circuit and other personnel in such number as may be approved
by the Director of the Administrative Office of the United States Courts. Compensation paid to such
attorneys and other personnel of the organization shall be fixed by the Federal Public Defender at a rate
not to exceed that paid to attorneys and other personnel of similar qualifications and experience in the
Office of the United States attorney in the district where representation is furnished or, if two districts or
parts of districts are involved, the higher compensation paid to persons of similar qualifications and
experience in the districts. Neither the Federal Public Defender nor any attorney so appointed by him
may engage in the private practice of law. Each organization shall submit to the Director of the
Administrative Office of the United States Courts, at the time and in the form prescribed by him, reports
of its activities and financial position and its proposed budget. The Director of the Administrative Office
shall submit, in accordance with section 605 of title 28, a budget for each organization for each fiscal
year and shall out of the appropriations therefor make payments to and on behalf of each organization.
Payments under this subparagraph to an organization shall be in lieu of payments under subsection (d)
or (e).
(B) Community Defender Organization, A Community Defender Organization shall be a
nonprofit defense counsel service established and administered by any group authorized by the plan to

uses

7

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

adp€/oc>U

6-

17551085

provide representation. The organization shall be eligible to furnish attorneys and receive payments
under this section if its bylaws are set forth in the plan of the district or districts in which it will serve.
Each organization shall submit to the Judicial Conference of the United States an annual report setting
forth its activities and financial position and the anticipated caseload and expenses for the next fiscal
year. Upon application an organization may, to the extent approved by the Judicial Conference of the
United States:
(i) receive an initial grant for expenses necessary to establish the organization;
and
(ii) in lieu of payments under subsection (d) or (e), receive periodic sustaining
grants to provide representation and other expenses pursuant to this section.
(3) Malpractice and negligence suits. The Director of the Administrative Office of the United
States Courts shall, to the extent the Director considers appropriate, provide representation for and hold
harmless, or provide liability insurance for, any person who is an officer or employee of a Federal Public
Defender Organization established under this subsection, or a Community Defender Organization
established under this subsection which is receiving periodic sustaining grants, for money damages for
injury, loss of liberty, loss of property, or personal injury or death arising from malpractice or negligence
of any such officer or employee in furnishing representational services under this section while acting
within the scope of that person’s office or employment.
(h) Rules and reports. Each district court and court of appeals of a circuit shall submit a report on
the appointment of counsel within its jurisdiction to the Administrative Office of the United States Courts
in such form and at such times as the Judicial Conference of the United States may specify. The Judicial
Conference of the United States may, from time to time, issue rules and regulations governing the
operation of plans formulated under this section.
(i) Appropriations. There are authorized to be appropriated to the United States courts, out of
any money in the Treasury not otherwise appropriated, sums necessary to carry out the provisions of this
section, including funds for the continuing education and training of persons providing representational
services under this section. When so specified in appropriation acts, such appropriations shall remain
available until expended. Payments from such appropriations shall be made under the supervision of the
Director of the Administrative Office of the United States Courts.
(j) Districts included. As used in this section, the term “district court” means each district court of
the United States created by chapter 5 of title 28 [28 USCS §§ 81 et seq.j, the District Court of the Virgin
Islands, the District Court for the Northern Mariana Islands, and the District Court of Guam.

USCS

8

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group: All rights reserved. Use ofthis product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

§ 3553. Imposition of a sentence
(a) Factors to be considered in imposing a sentence, The court shall impose a sentence
sufficient, but not greater than necessary, to comply with the purposes set forth in paragraph (2) of this
subsection. The court, in determining the particular sentence to be imposed, shall consider—
(1) the nature and circumstances of the offense and the history and characteristics of the
defendant;
(2) the need for the sentence imposed—
(A) to reflect the seriousness of the offense, to promote respect for the law, and to
provide just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes of the defendant; and
(D) to provide the defendant with needed educational or vocational training, medical
care, or other correctional treatment in the most effective manner;
(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing range established for—
(A) the applicable category of offense committed by the applicable category of
defendant as set forth in the guidelines—
(i) issued by the Sentencing Commission pursuant to section 994(a)(1) of title
28, United States Code, subject to any amendments made to such guidelines by act of Congress
(regardless of whether such amendments have yet to be incorporated by the Sentencing Commission
into amendments issued under section 994(p) of title 28); and
(ii) that, except as provided in section 3742(g) [18 USCS § 3742(g)], are in
effect on the date the defendant is sentenced; or
(B) in the case of a violation of probation or supervised release, the applicable
guidelines or policy statements issued by the Sentencing Commission pursuant to section 994(a)(3) of
title 28, United States Code, taking into account any amendments made to such guidelines or policy
statements by act of Congress (regardless of whether such amendments have yet to be incorporated by
the Sentencing Commission into amendments issued under section 994(p) of title 28);
(5) any pertinent policy statement—
(A) issued by the Sentencing Commission pursuant to section 994(a)(2) of title 28,
United States Code, subject to any amendments made to such policy statement by act of Congress
(regardless of whether such amendments have yet to be incorporated by the Sentencing Commission

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

into amendments issued under section 994(p) of title 28); and
(B) that, except as provided in section 3742(g) [18 USCS § 3742(g)], is in effect on the
date the defendant is sentenced.[;]
(6) the need to avoid unwarranted sentence disparities among defendants with similar records
who have been found guilty of similar conduct; and
(7) the need to provide restitution to any victims of the offense.

(b) Application of guidelines in imposing a sentence.
(1) In general [Caution: In United States v. Booker (2005) 543 US 220, 160 L Ed 2d 621, 125
S Ct 738, the Supreme Court held that 18 USCS § 3553(b)(1), which makes the Federal Sentencing
Guidelines mandatory, is incompatible with the requirements of the Sixth Amendment and
therefore must be severed and excised from the Sentencing Reform Act of 1984.] Except as
provided in paragraph (2), the court shall impose a sentence of the kind, and within the range, referred to
in subsection (a)(4) unless the court finds that there exists an aggravating or mitigating circumstance of a
kind, or to a degree, not adequately taken into consideration by the Sentencing Commission in
formulating the guidelines that should result in a sentence different from that described. In determining
whether a circumstance was adequately taken into consideration, the court shall consider only the
sentencing guidelines, policy statements, and official commentary of the Sentencing Commission. In the
absence of an applicable sentencing guideline, the court shall impose an appropriate sentence, having
due regard for the purposes set forth in subsection (a)(2). In the absence of an applicable sentencing
guideline in the case of an offense other than a petty offense, the court shall also have due regard for the
relationship of the sentence imposed to sentences prescribed by guidelines applicable to similar offenses
and offenders, and to the applicable policy statements of the Sentencing Commission.
(2) Child crimes and sexual offenses.
[(A)] Sentencing. In sentencing a defendant convicted of an offense under section 1201
[18 USCS § 1201] involving a minor victim, an offense under section 1591 [18 USCS § 1591], or an
offense under chapter 71, 109A, 110, or 117 [18 USCS §§ 1460 et seq., 2241 et seq., 2251 et seq., or
2421 et seq.], the court shall impose a sentence of the kind, and within the range, referred to in
subsection (a)(4) unless—
(i) the court finds that there exists an aggravating circumstance of a kind, or to a
degree, not adequately taken into consideration by the Sentencing Commission in formulating the
guidelines that should result in a sentence greater than that described;
(ii) the court finds that there exists a mitigating circumstance of a kind or to a
degree, that—
(I) has been affirmatively and specifically identified as a permissible
ground of downward departure in the sentencing guidelines or policy statements issued under section
994(a) of title 28, taking account of any amendments to such sentencing guidelines or policy statements
by Congress;
(II) has not been taken into consideration by the Sentencing Commission
in formulating the guidelines; and

USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

(Ill) should result in a sentence different from that described; or
(iii) the court finds, on motion of the Government, that the defendant has
provided substantial assistance in the investigation or prosecution of another person who has committed
an offense and that this assistance established a mitigating circumstance of a kind, or to a degree, not
adequately taken into consideration by the Sentencing Commission in formulating the guidelines that
should result in a sentence lower than that described.

In determining whether a circumstance was adequately taken into consideration, the court
shall consider only the sentencing guidelines, policy statements, and official commentary of the
Sentencing Commission, together with any amendments thereto by act of Congress. In the
absence of an applicable sentencing guideline, the court shall impose an appropriate sentence,
having due regard for the purposes set forth in subsection (a)(2). In the absence of an applicable
sentencing guideline in the case of an offense other than a petty offense, the court shall also have
due regard for the relationship of the sentence imposed to sentences prescribed by guidelines
applicable to similar offenses and offenders, and to the applicable policy statements of the
Sentencing Commission, together with any amendments to such guidelines or policy statements by
act of Congress.
(c) Statement of reasons for imposing a sentence. The court, at the time of sentencing, shall
state in open court the reasons for its imposition of the particular sentence, and, if the sentence—
(1) is of the kind, and within the range, described in subsection (a)(4), and that range exceeds 24
months, the reason for imposing a sentence at a particular point within the range; or
(2) is not of the kind, or is outside the range, described in subsection (a)(4), the specific reason
for the imposition of a sentence different from that described, which reasons must also be stated with
specificity in a statement of reasons form issued under section 994(w)(1)(B) of title 28 [28 USCS §
994(w)(1)(B)], except to the extent that the court relies upon statements received in camera in
accordance with Federal Rule of Criminal Procedure 32. In the event that the court relies upon
statements received in camera in accordance with Federal Rule of Criminal Procedure 32 the court shall
state that such statements were so received and that it relied upon the content of such statements.

If the court does not order restitution, or orders only partial restitution, the court shall include
in the statement the reason therefor. The court shall provide a transcription or other appropriate
public record of the court’s statement of reasons, together with the order of judgment and
commitment, to the Probation System and to the Sentencing Commission^,] and, if the sentence
includes a term of imprisonment, to the Bureau of Prisons.
(d) Presentence procedure for an order of notice.
Prior to imposing an order of notice
pursuant to section 3555 [18 USCS § 3555], the court shall give notice to the defendant and the
Government that it is considering imposing such an order. Upon motion of the defendant or the
Government, or on its own motion, the court shall—

USCS

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

(1) permit the defendant and the Government to submit affidavits and written memoranda
addressing matters relevant to the imposition of such an order;
(2) afford counsel an opportunity in open court to address orally the appropriateness of the
imposition of such an order; and
(3) include in its statement of reasons pursuant to subsection (c) specific reasons underlying its
determinations regarding the nature of such an order.

Upon motion of the defendant or the Government, or on its own motion, the court may in its
discretion employ any additional procedures that it concludes will not unduly complicate or
prolong the sentencing process.
(e) Limited authority to impose a sentence below a statutory minimum. Upon motion of
the Government, the court shall have the authority to impose a sentence below a level established by
statute as a minimum sentence so as to reflect a defendant’s substantial assistance in the investigation
or prosecution of another person who has committed an offense. Such sentence shall be imposed in
accordance with the guidelines and policy statements issued by the Sentencing Commission pursuant to
section 994 of title 28, United States Code.
(f) Limitation on applicability of statutory minimums in certain cases. Notwithstanding
any other provision of law, in the case of an offense under section 401, 404, or 406 of the Controlled
Substances Act (21 U.S.C. 841, 844, 846), section 1010 or 1013 of the Controlled Substances Import
and Export Act (21 U.S.C. 960, 963), or section 70503 or 70506 of title 46, the court shall impose a
sentence pursuant to guidelines promulgated by the United States Sentencing Commission under section
994 of title 28 without regard to any statutory minimum sentence, if the court finds at sentencing, after
the Government has been afforded the opportunity to make a recommendation, that—
(1) the defendant does not have—
(A) more than 4 criminal history points, excluding any criminal history points resulting
from a 1-point offense, as determined under the sentencing guidelines;
(B) a prior 3-point offense, as determined under the sentencing guidelines; and
(C) a prior 2-point violent offense, as determined under the sentencing guidelines;

Information disclosed by a defendant under this subsection may not be used to enhance the
sentence of the defendant unless the information relates to a violent offense.
(2) the defendant did not use violence or credible threats of violence or possess a firearm or
other dangerous weapon (or induce another participant to do so) in connection with the offense;
(3) the offense did not result in death or serious bodily injury to any person;
(4) the defendant was not an organizer, leader; manager, or supervisor of others in the offense,
as determined under the sentencing guidelines and was not engaged in a continuing criminal enterprise,
as defined in section 408 of the Controlled Substances Act [21 USCS § 848]; and
4

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085
APPSMOfy:

^

(5) not later than the time of the sentencing hearing, the defendant has truthfully provided to the
Government all information and evidence the defendant has concerning the offense or offenses that
were part of the same course of conduct or of a common scheme or plan, but the fact that the defendant
has no relevant or useful other information to provide or that the Government is already aware of the
information shall not preclude a determination by the court that the defendant has complied with this
requirement.
. (g) Definition of violent offense. As used in this section, the term “violent offense” means a
crime of violence, as defined in section 16 [18 USCS § 16], that is punishable by imprisonment.

5

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Appe/w i G-H

17551085

§ 3583. Inclusion of a term of supervised release after imprisonment
(a) In general. The court, in imposing a sentence to a term of imprisonment for a felony or a
misdemeanor, may include as a part of the sentence a requirement that the defendant be placed on a
term of supervised release after imprisonment, except that the court shall include as a part of the
sentence a requirement that the defendant be placed on a term of supervised release if such a term is
required by statute or if the defendant has been convicted for the first time of a domestic violence crime
as defined in section 3561(b) [18 USCS § 3561(b)].

(b) Authorized terms of supervised release,
terms of supervised release are—

Except as otherwise provided, the authorized

(1) for a Class A or Class B felony, not more than five years;
(2) for a Class C or Class D felony, not more than three years; and
(3) for a Class E felony, or for a misdemeanor (other than a petty offense), not more than one
year.
(c) Factors to be considered in including a term of supervised release.
The court, in
determining whether to include a term of supervised release, and, if a term of supervised release is to be
included, in determining the length of the term and the conditions of supervised release, shall consider
the factors set forth in section 3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6), and (a)(7)
[18 USCS § 3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6), and (a)(7)].
The court shall order, as an explicit condition of
(d) Conditions of supervised release,
supervised release, that the defendant not commit another Federal, State, or local crime during the term
of supervision, that the defendant make restitution in accordance with sections 3663 and 3663A, or any
other statute authorizing a sentence of restitution, and that the defendant not unlawfully possess a
controlled substance. The court shall order as an explicit condition of supervised release for a defendant
convicted for the first time of a domestic violence crime as defined in section 3561(b) [18 USCS §
3561(b)] that the defendant attend a public, private, or private nonprofit offender rehabilitation program
that has been approved by the court, in consultation with a State Coalition Against Domestic Violence or
other appropriate experts, if an approved program is readily available within a 50-mile radius of the legal
residence of the defendant. The court shall order, as an explicit condition of supervised release for a
person required to register under the Sex Offender Registration and Notification Act [34 USCS §§ 20901
et seq.], that the person comply with the requirements of that Act. The court shall order, as an explicit
condition of supervised release, that the defendant cooperate in the collection of a DNA sample from the
defendant, if the collection of such a sample is authorized pursuant to section 3 of the DNA Analysis
Backlog Elimination Act of 2000 [42 USCS § 14135a]. The court shall also order, as an explicit condition
of supervised release, that the defendant refrain from any unlawful use of a controlled substance and
submit to a drug test within 15 days of release on supervised release and at least 2 periodic drug tests
thereafter (as determined by the court) for use of a controlled substance. The condition stated in the
preceding sentence may be ameliorated or suspended by the court as provided in section 3563(a)(4).
The results of a drug test administered in accordance with the preceding subsection shall be subject to
1

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Appeal 6~ ^

17551085

confirmation only if the results are positive, the defendant is subject to possible imprisonment for such
failure, and either the defendant denies the accuracy of such test or there is some other reason to
question the results of the test. A drug test confirmation shall be a urine drug test confirmed using gas
chromatography/mass spectrometry techniques or such test as the Director of the Administrative Office
of the United States Courts after consultation with the Secretary of Health and Human Services may
determine to be of equivalent accuracy. The court shall consider whether the availability of appropriate
substance abuse treatment programs, or an individual’s current or past participation in such programs,
warrants an exception in accordance with United States Sentencing Commission guidelines from the rule
of section 3583(g) [18 USCS § 3583(g)] when considering any action against a defendant who fails a
drug test. The court may order, as a further condition of supervised release, to the extent that such
condition—
(1) is reasonably related to the factors set forth in section 3553(a)(1), (a)(2)(B), (a)(2)(C), and
(a)(2)(D) [18 USCS § 3553(a)(1), (a)(2)(B), (a)(2)(C), and (a)(2)(D)];
(2) involves no greater deprivation of liberty than is reasonably necessary for the purposes set
forth in section 3553(a)(2)(B), (a)(2)(C), and (a)(2)(D) [18 USCS § 3553(a)(2)(B), (a)(2)(C), and
(a)(2)(D)]; and
(3) is consistent with any pertinent policy statements issued by the Sentencing Commission
pursuant to 28 U.S.C. 994(a);

any condition set forth as a discretionary condition of probation in section 3563(b) [18 USCS
§ 3563(b)] and any other condition it considers to be appropriate, provided, however that a
condition set forth in subsection 3563(b)(10) [28 USCS § 3563(b)( 10)] shall be imposed only for
a violation of a condition of supervised release in accordance with section 3583(e)(2) [18 USCS §
3583(e)(2)] and only when facilities are available. If an alien defendant is subject to deportation,
the court may provide, as a condition of supervised release, that he be deported and remain
outside the United States, and may order that he be delivered to a duly authorized immigration
official for such deportation. The court may order, as an explicit condition of supervised release
for a person who is a felon and required to register under the Sex Offender Registration and
Notification Act [34 USCS §§ 20901 et seq.], that the person submit his person, and any
property, house, residence, vehicle, papers, computer, other electronic communications or data
storage devices or media, and effects to search at any time, with or without a warrant, by any law
enforcement or probation officer with reasonable suspicion concerning a violation of a condition
of supervised release or unlawful conduct by the person, and by any probation officer in the lawful
discharge of the officer’s supervision functions.
(e) Modification of conditions or revocation. The court may, after considering the factors set
forth in section 3553 (a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6), and (a)(7) [18 USCS §
3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6), and (a)(7)]—
(1) terminate a term of supervised release and discharge the defendant released at any time
after the expiration of one year of supervised release, pursuant to the provisions of the Federal Rules of
Criminal Procedure relating to the modification of probation, if it is satisfied that such action is warranted

USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group: AH rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

by the conduct of the defendant released and the interest of justice;
(2) extend a term of supervised release if less than the maximum authorized term was
previously imposed, and may modify, reduce, or enlarge the conditions of supervised release, at any
time prior to the expiration or termination of the term of supervised release, pursuant to the provisions of
the Federal Rules of Criminal Procedure relating to the modification of probation and the provisions
applicable to the initial setting of the terms and conditions of post-release supervision;
(3) revoke a term of supervised release, and require the defendant to serve in prison all or part
of the term of supervised release authorized by statute for the offense that resulted in such term of
supervised release without credit for time previously served on postrelease supervision, if the court,
pursuant to the Federal Rules of Criminal Procedure applicable to revocation of probation or supervised
release, finds by a preponderance of the evidence that the defendant violated a condition of supervised
release, except that a defendant whose term is revoked under this paragraph may not be required to
serve on any such revocation more than 5 years in prison if the offense that resulted in the term of
supervised release is a class A felony, more than 3 years in prison if such offense is a class B felony,
more than 2 years in prison if such offense is a class C or D felony, or more than one year in any other
case; or
(4) order the defendant to remain at his place of residence during nonworking hours and, if the
court so directs, to have compliance monitored by telephone or electronic signaling devices, except that
an order under this paragraph may be imposed only as an alternative to incarceration.
(f) Written statement of conditions. The court shall direct that the probation officer provide the
defendant with a written statement that sets forth all the conditions to which the term of supervised
release is subject, and that is sufficiently clear and specific to serve as a guide for the defendant’s
conduct and for such supervision as is required.

(g) Mandatory revocation for possession of controlled substance or firearm or for
refusal to comply with drug testing. If the defendant—
(1) possesses a controlled substance in violation of the condition set forth in subsection (d);
(2) possesses a firearm, as such term is defined in section 921 of this title [18 USCS § 921], in
violation of Federal law, or otherwise violates a condition of supervised release prohibiting the defendant
from possessing a firearm;
(3) refuses to comply with drug testing imposed as a condition of supervised release; or
(4) as a part of drug testing, tests positive for illegal controlled substances more than 3 times
over the course of 1 year;

the court shall revoke the term of supervised release and require the defendant to serve a term
of imprisonment not to exceed the maximum term of imprisonment authorized under subsection
(e)(3).
(h) Supervised release following revocation. When a term of supervised release is revoked
and the defendant is required to serve a term of imprisonment, the court may include a requirement that

USCS

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

MPOMU e-3c>

17551085

the defendant be placed on a term of supervised release after imprisonment. The length of such a term
of supervised release shall not exceed the term of supervised release authorized by statute for the
offense that resulted in the original term of supervised release, less any term of imprisonment that was
imposed upon revocation of supervised release.
(i) Delayed revocation.
The power of the court to revoke a term of supervised release for
violation of a condition of supervised release, and to order the defendant to serve a term of
imprisonment and, subject to the limitations in subsection (h), a further term of supervised release,
extends beyond the expiration of the term of supervised release for any period reasonably necessary for
the adjudication of matters arising before its expiration if, before its expiration, a warrant or summons
has been issued on the basis of an allegation of such a violation.
Q) Supervised release terms for terrorism predicates. Notwithstanding subsection (b), the
authorized term of supervised release for any offense listed in section 2332b(g)(5)(B) [18 USCS §
2332b(g)(5)(B)j is any term of years or life.
(k) Notwithstanding subsection (b), the authorized term of supervised release for any offense under
section 1201 [18 USCS § 1201] involving a minor victim, and for any offense under section 1591,
1594(c), 2241, 2242, 2243, 2244, 2245, 2250, 2251, 2251 A, 2252, 2252A, 2260, 2421, 2422, 2423, or
2425 [18 USCS § 1591, 1594(c), 2241, 2242, 2244(a)(1), 2244(a)(2), 2251, 2251 A, 2252, 2252A, 2260,
2421, 2422, 2423, or 2425], is any term of years not less than 5, or life. If a defendant required to register
under the Sex Offender Registration and Notification Act commits any criminal offense under chapter
109A, 110, or 117, or section 1201 or 1591 [18 USCS §§ 2241 et seq., 2251 et seq., 2421 et seq., 1201,
or 1591], for which imprisonment for a term longer than 1 year can be imposed, the court shall revoke
the term of supervised release and require the defendant to serve a term of imprisonment under
subsection (e)(3) without regard to the exception contained therein. Such term shall be not less than 5
years.

USCS

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

/ipPeiW* €-3)

17551085

§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the right
to be released upon the ground that the sentence was imposed in violation of the Constitution or laws of
the United States, or that the court was without jurisdiction to impose such sentence, or that the sentence
was in excess of the maximum authorized by law, or is otherwise subject to collateral attack, may move
the court which imposed the sentence to vacate, set aside or correct the sentence.
(b) Unless the motion and the files and records of the case conclusively show that the prisoner is
entitled to no relief, the court shall cause notice thereof to be served upon the United States attorney,
grant a prompt hearing thereon, determine the issues and make findings of fact and conclusions of law
with respect thereto. If the court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack, or that there has
been such a denial or infringement of the constitutional rights of the prisoner as to render the judgment
vulnerable to collateral attack, the court shall vacate and set the judgment aside and shall discharge the
prisoner or resentence him or grant a new trial or correct the sentence as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the production of the prisoner
at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the motion as from the
final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section, shall not be entertained if it appears that the applicant has failed
to apply for relief, by motion, to the court which sentenced him, or that such court has denied him relief,
unless it also appears that the remedy by motion is inadequate or ineffective to test the legality of his
detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The limitation period shall
run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental action in
violation of the Constitution or laws of the United States is removed, if the movant was prevented from
making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme Court and made retroactively applicable to cases on
collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have been
discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act [21 USCS § 848], in all
proceedings brought under this section, and any subsequent proceedings on review, the court may

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

17551085

appoint counsel, except as provided by a rule promulgated by the Supreme Court pursuant to statutory
authority. Appointment of counsel under this section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 [28 USCS § 2244]
by a panel of the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and convincing evidence that no reasonable factfinder would
have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.

USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APfgrfH e-33

17551085

